<html>
<title> - [H.A.S.C. No. 111-14]  U.S. SPECIAL OPERATIONS COMMAND: CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-14] 

     U.S. SPECIAL OPERATIONS COMMAND: CHALLENGES AND OPPORTUNITIES 

                               __________

                                HEARING

                               BEFORE THE

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 3, 2009

                                     
                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-127 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
JIM COOPER, Tennessee                BILL SHUSTER, Pennsylvania
JIM MARSHALL, Georgia                K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              THOMAS J. ROONEY, Florida
PATRICK J. MURPHY, Pennsylvania      MAC THORNBERRY, Texas
BOBBY BRIGHT, Alabama
                 Bill Natter, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant
























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, March 3, 2009, U.S. Special Operations Command: 
  Challenges and Opportunities...................................     1

Appendix:

Tuesday, March 3, 2009...........................................    25
                              ----------                              

                         TUESDAY, MARCH 3, 2009
     U.S. SPECIAL OPERATIONS COMMAND: CHALLENGES AND OPPORTUNITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Shuster, Hon. Bill, a Representative from Pennsylvania, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     2
Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1

                               WITNESSES

Carstens, Roger D., Lt. Col. (Ret.) U.S. Army Special Forces, 
  Non-Resident Fellow, Center for a New American Security........     6
Martinage, Robert, Senior Fellow, Center for Strategic and 
  Budgetary Assessments..........................................     2

                                APPENDIX

Prepared Statements:

    Carstens, Roger D............................................    66
    Martinage, Robert............................................    31
    Miller, Hon. Jeff, a Representative from Florida, Ranking 
      Member, Terrorism, Unconventional Threats and Capabilities 
      Subcommittee...............................................    30
    Smith, Hon. Adam.............................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
     U.S. SPECIAL OPERATIONS COMMAND: CHALLENGES AND OPPORTUNITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                            Washington, DC, Tuesday, March 3, 2009.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2212, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. Welcome. We will go ahead and get started with 
our hearing.
    We are going to get interrupted, as seems to happen 
frequently. But we will get started and at least have the 
witnesses give their testimony and take the votes and come 
back. It shouldn't be that long. Should be, I think, three 
suspension votes, which takes about 20 minutes longer than it 
should, but we will take about 45 minutes probably. We will 
have that break and come back and try and do that.
    And hopefully we will be able to draw up some more members. 
I think the weather yesterday disrupted some schedules.
    But we appreciate our witnesses being here with us today. 
We have Robert Martinage, who is a senior fellow for the Center 
for Strategic and Budgetary Assessments, and Mr. Roger 
Carstens, who is a non-resident fellow at the Center for a New 
American Security. And we have asked them here to give us their 
perspectives on where the Special Operations Command is at, 
where it needs to go, what it does well, what it can do 
better--something that is of particular interest to this 
subcommittee.
    We are very, very focused on what the Special Operations 
Command (SOCOM) is doing. They are growing, as we know, as the 
demands on their talents have grown. We are trying to grow the 
force, so one of our big concerns is how can we do that process 
and do it in a way to make sure we maintain the quality. 
Because you don't find Special Operations Forces (SOF) people 
just walking around the streets. There is a special set of 
talents, and we want to make sure we maintain that very, very 
high level of quality.
    And then, also, they have been the lead organization in the 
counterterrorism effort throughout the world. This subcommittee 
has had the opportunity to travel to the Philippines, Iraq, 
Afghanistan, a whole bunch of different places where SOCOM 
forces are taking the lead in combating violent extremism in a 
variety of ways, certainly with kinetic action, identifying 
high-value targets and disrupting terrorist networks, but also 
with nonkinetic actions, indirect action that focuses on 
classic counterinsurgency of training local communities to 
fight off insurgencies before they can take root and providing 
for those local communities in a way that discourages 
insurgency.
    So, I think there is a lot to learn from what SOCOM is up 
to. And we are, you know, just amazed at what they are doing 
throughout the world. They are making a difference in being 
highly successful in many, many places, some of which are in 
the news and some of which aren't. But their talents, I think, 
have really been a major, major factor in our successes thus 
far against the violent extremist networks, like al Qaeda, that 
challenge us.
    With that, Mr. Miller has not joined us yet, the ranking 
member--he is on his way--but I will yield to Mr. Shuster for 
whatever opening comments he may have.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 29.]

     STATEMENT OF HON. BILL SHUSTER, A REPRESENTATIVE FROM 
      PENNSYLVANIA, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Shuster. In light of the fact that they just called a 
vote, I am going to be extremely brief so we can get their 
statements in, and just echo much of what Mr. Smith said. It is 
so important we do this right and we hear from other folks that 
are knowledgeable on this subject and learn from them.
    Also, I would like to ask unanimous consent that Mr. 
Miller, who has a statement for the record, to be submitted in 
its entirety.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 30.]
    Mr. Shuster. And, with that, I will yield back.
    Mr. Smith. Great. Thanks.
    And I think we will try to get Mr. Martinage in. If we can 
keep it in the 5- to 10-minute realm, we will hear your opening 
statement, and then we will break and come back.
    You are on.

   STATEMENT OF ROBERT MARTINAGE, SENIOR FELLOW, CENTER FOR 
              STRATEGIC AND BUDGETARY ASSESSMENTS

    Mr. Martinage. Great. Well, first off, I want to thank you 
and the committee for the opportunity to appear here today to 
share my thoughts on the challenges and opportunities facing 
U.S. Special Operations Forces. I would just like to emphasize 
a few points that I have raised in my written statement, which, 
I guess, is part of the record, and allow time for follow-on 
discussion.
    As I think everyone here is aware, SOF have really figured 
prominently in U.S. military operations since 2001 and have 
become central to the implementation of the U.S. national 
defense strategy. Reflecting that reality, the operation tempo 
currently being sustained by SOF is the highest in its history.
    Looking ahead, the future security environment, we believe, 
will likely be characterized by three trends: one, the 
continuation and intensification of violent Islamic radicalism; 
the potential uprise of China or other authoritarian states as 
more aggressive political-military competitors; and the 
increased proliferation of weapons of mass destruction.
    Of course, SOCOM will need to be shaped, sized, and 
postured for all three of these challenges. But this afternoon 
I really want to focus on the continuation of war against 
violent Islamic extremism and irregular warfare more broadly. 
If you want to talk about those other two topics, I would be 
happy to do so.
    So I have organized my thoughts really into three 
conceptual bins: first, what are some of the institutional or 
policy changes within Special Operations Command, or SOCOM; 
second, what are some high-priority investments for SOCOM's 
subordinate commands; and, third, what are some steps that the 
general purpose forces--the Air Force, Army, Navy, and Marine 
Corps--might take to contribute to the irregular warfare 
mission or enable SOF.
    So, using that to set the stage, I will start from the top. 
I would like to suggest two potential institutional changes for 
SOCOM. The first is, consideration should be given to the 
establishment of a joint irregular warfare command. I mean, 
although that is a contentious idea, I think a strong argument 
can be made that the indirect warfare part of SOCOM's 
portfolio--meaning unconventional warfare, foreign internal 
defense, civil affairs, and psychological operations--are 
underrepresented bureaucratically. As a reflection of that, 
over the past two decades, SOCOM has never been commanded by a 
Special Forces officer, and, conversely, every SOCOM commander 
has climbed the direct action ladder, and most have held at 
least one senior-level command in Joint Special Operations 
Command, or JSOC.
    So, in addition to centralizing the management of irregular 
warfare-related doctrine, organization, training, equipment, 
and career path, a joint irregular warfare command would also 
be better able to compete for resources and advocate indirect 
warfare strategies within SOCOM and the broader Department of 
Defense (DOD). This type of organization would also serve as a 
needed counterbalance to JSOC within SOCOM, and could also be a 
proponent for Special Operations approaches to irregular 
warfare within the conventional joint force, which, as you 
know, is dominated by general purpose forces. So it would be an 
opportunity, really, to give SOF a louder voice in debates 
about irregular warfare strategy.
    The second SOCOM-wide change that I think merits some 
consideration are options for forging a closer, two-way 
relationship with the Central Intelligence Agency (CIA). At its 
core, the war against Islamic terrorist groups is an 
intelligence and Special Operations-intensive war. Making full 
use of special authorities to wage this indirect, clandestine, 
and covert war is essential.
    This should entail not only integrating CIA capabilities 
with those of both Black and White SOF, but regularly 
leveraging the CIA's Title 50 foreign intelligence authorities 
for SOF operations through the flexible and routine detailing 
of SOF personnel to the Agency. Ideally, personnel should not 
only be able to move back and forth from CIA stations and SOF 
ground units, but also to compete for selected mid- and senior-
level leadership positions in either organization.
    All right, now I would like to shift quickly to some high-
priority investments for SOCOM subordinate commands. I would 
like to quickly make six points.
    First, consideration should be given to changing the 
regional orientation of the five active Special Forces groups. 
The present configuration is really a legacy of the Cold War 
and is poorly aligned with current and emerging strategic 
challenges. For example, responsibility for Africa, a key 
region in the war against violent Islamic radicalism, is 
divided among three Special Forces groups. Conversely, the 
Fifth Special Forces Group not only has responsibility for the 
Middle East and the Persian Gulf, which arguably is a pretty 
big area of responsibility currently, but also Central Asia and 
the Horn of Africa. So, really, this regional orientation needs 
to be relooked at, and I have some thoughts about that.
    Second, serious consideration should be given to expanding 
Special Operations rotary-wing aviation capability, Special 
Operations helicopters. The 2006 Quadrennial Defense Review 
(QDR) did a lot of important, very good things in terms of 
preparing SOF for the future, including, most notably, a one-
third expansion of SOF ground forces. The problem, however, was 
there was no proportional increase in the fixed- and rotary-
wing aviation required to support those ground forces. And this 
shortfall really is something that needs to be addressed as 
soon as possible. In Iraq and Afghanistan, conventional Army 
aviation units are relied upon to provide lift support for 
about two-thirds of SOF grounds units. In Afghanistan, nearly 
50 percent of the lift request to support Joint Special 
Operations Task Force-Afghanistan, or JSOTF-A, are routinely 
unmet.
    So, simply put, more SOCOM-controlled helicopters are 
needed to move and support a busy and expanding SOF ground 
force. I suggest in the paper that creation of at least two 
additional Special Operations helicopter battalions, hopefully 
over the next five years. Given the altitude challenges in 
Afghanistan, the need to operate at high altitude with 
relatively heavy payloads, the top priority should be standing 
up a new MH-47 Chinook battalion to support White SOF.
    To accomplish this in a timely manner, it is going to be 
necessary to redouble ongoing efforts to recruit, assess, and 
train helicopter crews. That really is the pacing factor in 
terms of this. And, more specifically, additional funding will 
be needed to increase the number of instructors and expand the 
limited training infrastructure currently available to the 
Special Operations Aviation Training Company in Fort Campbell, 
Kentucky. Options should also be explored for having the U.S. 
Navy and Marine Corps contribute to the Special Operations 
aviation lift requirement.
    The third point is, for the same reasons I discussed a 
minute ago, it is also necessary to recapitalize and expand the 
fixed-wing aviation fleet under Air Force Special Operations 
Command (AFSOC). This should entail both additional C-130 
variants, as well as smaller aircraft like the C-27J Spartan 
and single- or dual-engine aircraft in some numbers similar to 
the U-28s.
    Fourth, given the importance of winning over the hearts and 
minds of local populations in a future security environment 
that is likely to be characterized by persistent irregular 
warfare, serious consideration should be given to further 
expanding active-duty civil affairs and psychological 
operations (PSYOPS) force structure.
    Fifth, Air Force Special Operations Command clearly needs 
additional unmanned combat air systems, or UCAS, capacity to 
provide persistent airborne reconnaissance and strike coverage 
globally. While SOCOM is in the process of expanding AFSOC's 
fleet so that it can provide 10 combat air patrols with a mix 
of Predator and Reaper systems, it still falls far short of the 
30 orbits that is the stated requirement just for the Central 
Command Area of Responsibility (CENTCOM AOR).
    Now, of course, the conventional Air Force should also 
provide some of that capacity for persistent surveillance and 
strike coverage. The question is, what is the appropriate 
balance? But I think, clearly, additional organic capacity 
within Air Force Special Operations Command is needed.
    Sixth, and finally, Air Force Special Operations Command's 
combat aviation advisor, or Aviation FID, Foreign Internal 
Defense, capacity needs to be further expanded. At the 
direction of the 2006 QDR, the Sixth Special Operations 
Squadron, where this capability resides in SOCOM, is doubling 
its capacity from 110 to 230 authorized advisors. That 
expansion is still insufficient. And to close that gap between 
available capacity and demand, SOCOM should consider creating 
an irregular warfare wing that would have two core missions: 
providing specialized air power necessary to support U.S.-led 
irregular warfare operations globally, and training and 
enabling partner nations to develop, sustain, and employ air 
power in combating internal threats.
    Now I would just like to briefly wrap up with a few 
comments about how the general purpose forces might better 
support the irregular warfare mission and enable SOF.
    Basically, the Army and the Marine Corps must develop the 
capabilities and capacities needed to train and advise foreign 
security forces in multiple, widely dispersed countries 
simultaneously. What does this mean? For the Army, it means a 
significant shift away from heavy or future combat system 
brigade combat teams (BCTs) toward infantry or security 
cooperation BCTs and, preferably, a much smaller security force 
assistance or other specialized irregular warfare units. A 
similar shift needs to occur in the Marine Corps.
    It would also be helpful if Army took steps to better 
support SOF ground forces, especially with respect to rotary-
wing aviation and logistics support. Currently, the structure 
of the brigade combat team and supporting brigades, like the 
combat aviation brigades, significantly constrains their 
ability to support or enable SOF.
    The Navy really needs to take on the steady-state maritime 
foreign internal defense and security force assistance mission. 
I can share some details with you later on, if you are 
interested in what that might entail, and the Air Force----
    Mr. Smith. I will think we will probably have to wrap up on 
your Air Force point, because we are getting close to time and 
the members need to run over and vote.
    Mr. Martinage. Okay. The Air Force really--just like the 
Sixth Special Operations Squadron (SOS) needs additional 
capacity, the regular Air Force should stand up dedicated 
irregular warfare and aviation advisor squadrons. And that 
would have a number of implications for the Air Force. But it 
would be good to have that capacity both in the regular Air 
Force and AFSOC.
    And, with that, I will wrap up.
    [The prepared statement of Mr. Martinage can be found in 
the Appendix on page 31.]
    Mr. Smith. You raised a lot of issues, most of which I 
think we all want to talk about further. So we will sprint over 
and vote, hopefully quickly. Best estimation, based on previous 
experience, is that we will be back at 4:30. So we will try to 
get back sooner than then, but, for planning purposes, that is 
the most likely outcome. We will be back.
    [Recess.]
    Mr. Smith. I think we will go ahead and dive back in. The 
goal is still to be done no later than 5:30. So we will hear 
from Mr. Carstens, then open it up for questions.

   STATEMENT OF ROGER D. CARSTENS, LT. COL. (RET.) U.S. ARMY 
SPECIAL FORCES, NON-RESIDENT FELLOW, CENTER FOR A NEW AMERICAN 
                            SECURITY

    Mr. Carstens. Chairman Smith and distinguished members of 
the committee, I am honored to appear before you today, and I 
thank you for your invitation to discuss the challenges and 
opportunities that will face U.S. Special Operations Forces.
    As a 20-year veteran of Ranger battalions and Special 
Forces units, I was given the opportunity to conduct a year-
long study to catalog how SOF has changed since 9/11 and where 
SOF should go in the future. My study took me to Iraq, 
Afghanistan, and the Horn of Africa, as well as 13 military 
locations, ranging from the National Training Center in 
California to Fort Bragg, North Carolina. My findings and 
recommendations emanate from those visits, and I look forward 
to sharing them with you today.
    With the chairman's approval, I would like to submit for 
the record a more comprehensive review of my findings and 
summarize verbally.
    Mr. Smith. Without objection.
    [The information referred to is retained in the committee 
files and can be viewed upon request.]
    Mr. Carstens. Special Operations Forces have spearheaded 
the war on terror from the very first days of the campaign in 
Afghanistan to the current battlefields of Iraq. Some of their 
missions and successes are well-known; others, such as the 
quiet battle being waged against Abu Sayyaf in the Philippines, 
less so. But one thing seems certain: The demand for SOF in the 
near and long term is likely to increase. As conventional 
forces depart Iraq, SOF is projected to stay. As United States 
Africa Command (AFRICOM) grows, so will SOF participation in 
Africa. And, as pressure on the defense budget grows, 
policymakers will increasingly look to SOF as an efficient and 
effective return on investment.
    To that end, senior leaders must be aware of the issues 
that face SOF and of the choices that they will have to make to 
best position this capable force for the future. This study has 
identified some of those key issues and has derived a set of 
findings as a result. And I will go through them quickly.
    Number one, SOF must ``right-size'' growth to support QDR 
2006 increases. The 2006 QDR dictated substantial growth in 
personnel and equipment for SOCOM. These increases, however, 
have not been right-sized to meet the current and future 
demands of SOF. As a result, the 2010 QDR needs to focus 
heavily on right-sizing growth to support 2006 gains, as well 
as growing SOF across the spectrum to meet emerging missions.
    Number two, SOF must strike a balance between the indirect 
and the direct approaches. Conventional wisdom holds that the 
Special Operations community has not struck an effective or an 
appropriate balance between the direct and the indirect 
approaches. While the case for imbalance may be overstated, the 
need to address this issue is not.
    Number three, SOF and general purpose forces, GPF, must 
seek a division of labor. As SOF responsibilities grow, 
policymakers and military leaders will need to determine where 
GPF can take on SOF roles and where SOF has a comparative 
advantage. SOCOM and GPF must find the right balance.
    Number four, SOCOM must evaluate roles and missions to 
address duplication and better balance resources. Seven years 
into the global war on terror, SOCOM tactical units are heavily 
engaged in direct and indirect actions around the world. 
However, there is still some confusion as to who should be 
doing what.
    Number five, SOF must conduct acquisition at the speed of 
war. SOF has traditionally been the lead in rapidly taking 
equipment and putting it into the hands of its operators. A 
lack of acquisition executives at SOCOM with Special Operations 
experience, combined with the risk-averse approach to bringing 
in new soldier systems, have dramatically slowed the 
procurement process. SOCOM needs to reverse this trend and 
bring back the days of soft primacy in the arena of combat 
development and acquisition.
    Six, DOD must ensure enabler and logistical support to SOF 
remaining in Iraq as the conventional force withdraws. It is 
clear that the conventional military forces that are now in 
Iraq will draw down in the near future. It is likely that SOF 
will not be drawing down. SOF, however, does not have the 
logistics architecture to support such prolonged deployments. 
Basing, messing, fuel, motor pools, medical facilities, 
ammunition resupply, and base security, to name a few areas of 
concern, reside within the conventional force. Civilian and 
military leaders alike will have to make value judgments as to 
what the conventional military leaves behind.
    Number seven, SOCOM must receive more authority to manage 
and recruit personnel. The 2006 QDR was generous to SOCOM, 
adding over 13,000 people to its rolls. The services, however, 
retain a strong voice in the management of these Special 
Operators. SOCOM should have more of a say in how they are 
managed, and that may require revising Title 10.
    Recommendations that follow from these findings, there are 
five:
    Number one, encourage SOCOM to re-evaluate component roles 
and missions. In a time of decreasing budgets, the demise of 
the wartime supplemental, and the confusion in the field as to 
who should be doing what, it is necessary for SOCOM to re-
evaluate the mission it expects its components to execute.
    Two, increase interagency participation in Special 
Operations. In the early days of the fight in Afghanistan, Army 
Special Forces and CIA officers used their unique talents and 
congressional authorities to great effect. Such efforts in 
bringing these two elements together, as well as other members 
of the interagency, will allow for the meldings of Titles 10, 
22, and 50 during the conduct of operations.
    Three, dramatically increase SOF to meet future demands. 
SOCOM must match the missions that they expect SOF to conduct 
with the forces and enablers that are required. SOF will have 
an increased role in a future that will likely include a 
persistent presence, persistent engagement, and shaping 
operations. Such steps as dramatically increasing the size of 
the Special Operations Aviation Regiment, formalizing the 
creation of a Special Operations aviation training battalion, 
adding another Ranger battalion, increasing more Special 
Operations Command (SOC) personnel authorization, bolstering 
civil affairs, and growing more in-house enablers, like 
unmanned aerial systems and intelligence analysts, are prudent 
choices for the Defense Department to make in this environment.
    Number four, establish a permanent position on the Joint 
Chiefs of Staff for a Special Operations flag officer. All the 
services currently have elements organized under SOCOM. While 
SOCOM sits as a combatant command, it is not adequately 
represented at the JCS level in the Pentagon, where uniformed 
services conduct strategy, planning, and resourcing decisions.
    There have been discussions in the past of creating a 
completely separate service of SOF to address this shortfall in 
representation. While this has some appeal to address the 
current and future military challenges, it is not appealing in 
an environment of constrained resources. The services have 
significant organization, support, and logistics scales, which 
SOF would have to recreate at significant cost in terms of both 
resources and time. A more timely effect could be achieved by 
having a SOF representative sit on the JCS as an equal partner.
    Lastly, restructure the Assistant Secretary of Defense for 
Special Operations and Low-Intensity and Interdependent 
Capabilities to report directly to the Secretary of Defense. 
The ASD SO/LIC & IC is currently organized under the Office of 
the Under Secretary of Defense for Policy. At a time when ASD 
SO/LIC & IC is functioning as the Secretary of Defense's 
primary advisor on SOF and countering extremists, this is 
ineffective. This advice and oversight extends across all the 
services and agencies of the Department. As such, ASD SO/LIC & 
IC should be elevated to a level where oversight and 
coordination can more effectively include all aspects of the 
Department.
    Mr. Chairman, members of the committee, I will conclude by 
thanking you for giving me the opportunity to come and share my 
thoughts with you. I hope that you found this testimony useful. 
I will be happy to answer your questions.
    [The prepared statement of Mr. Carstens can be found in the 
Appendix on page 66.]
    Mr. Smith. Thank you very much.
    We will get to questions, and we will stick to the five-
minute rule. Typically, on the subcommittee level, we have time 
to get around to a second round, but I find it moves 
efficiently if we stick to the five-minute rule for everybody, 
including me.
    The first question I have, really for both of you: There 
are a lot of items here, and I very much agree with where you 
are going on this, particularly the idea of elevating SOCOM in 
a variety of different places. They have such a vastly more 
important role now than they did seven, eight years ago. Giving 
them greater status on the Joint Chiefs, increasing their 
acquisition ability, increasing cooperation, I think all of 
that is very good. And as you also list through the areas where 
they could use more resources, I can't disagree with any of 
them.
    I am also mindful of the fact that there is simply no way--
particularly in going through Mr. Martinage's list, they are 
not going to get all of that. I guess the question I would 
have: What is the most important? What are the one or two 
things in that list?
    You mentioned more fixed-wing, more helicopters, more 
personnel in general, more Unmanned Aerial Vehicles (UAVs)--a 
bunch of different issues. I am not sure if you had a chance to 
talk about that in your actual remarks, but in your statement 
you talk about on the Navy side more Sea Air Land (SEAL) 
delivery systems, more for the boat teams. There is a lot of 
``more'' in here.
    So I have already asked the question. If you said, here are 
the two things that, if you gave this to SOCOM, this is what 
would really give them the greater operational capacity to the 
maximum extent, most bang for the buck, if you will.
    Mr. Martinage. Number one for me would be the rotary-wing 
aviation piece. I think increasing the capacity of the 160th 
Special Operations Aviation Regiment (SOAR) is probably job 
one.
    Beyond that, I am really torn. I have five that I was going 
to suggest. But I think probably number two----
    Mr. Smith. That is the thing about being in a think tank. 
You guys figure it out. I understand.
    Mr. Martinage. I will tell you what the second one is. I 
think I would go with probably the combat aviation advisors, 
the Sixth Special Operations Squadron, just because I see a big 
demand for that down the road. That is really running very 
close with the PSYOPS and civil affairs capacity. So I snuck 
three in on you.
    Mr. Smith. Okay. And the same question, Mr. Carstens, 
actually, from your perspective.
    Mr. Carstens. Sir, I have to agree with Bob. I think we 
need to get dedicated SOF Air. That can be done in numerous 
ways, but one would be to increase the size of the Special 
Operations Aviation Regiment and formalize the creation of a 
Special Operations aviation training battalion to better 
prepare their crews and their aviators, because right now they 
are taking everything out of hide.
    The second thing would not really cost much. It would have 
hidden costs. But I really think we need to take a look at 
Title 10 again and take a look at trying to give the SOCOM 
commander more control over personnel. We can go into great 
depth on that, but I will throw out one example.
    If a Navy intel analyst swings by a SEAL unit, goes to 
Iraq, gets numerous combat deployments under his belt, becomes 
an expert after two or three years of manhunting and dealing 
with special operations, what he might find is that in his next 
assignment he is going out to sea to serve a shipborne duty and 
he may never rotate back to the Special Operations community. 
We need to somehow fix that in either closing the loop or 
giving them a skill identifier, which gives the Navy a chance 
and also the Army and the Air Force and Marines Special 
Operations a chance to get some of these people back.
    That is one example; there are many. But we need to get 
more personnel control back to Admiral Olson.
    Mr. Martinage. Can I throw in one more thing? Two of the 
other areas that I would have suggested are the fixed-wing 
aviation and then the UCAS, or unmanned combat air systems.
    But, really, the question is, what is the appropriate 
balance between SOCOM and, in this case, AFSOC and the big Air 
Force? So if the Air Force steps up to provide more of that 
capacity, it is a less urgent demand for AFSOC. If they don't, 
that increases the priority of those things.
    Mr. Smith. That is a major concern of the committee, is on 
the air wing side, because the Air Force has so many demands on 
them right now, so many programs that are a little bit behind 
in terms of the acquisition need, certainly with airlift, with 
the C-17--and those folks from the Northwest are familiar with 
the tanker issue--that we fear that, because of the dependency 
that SOCOM and AFSOC, in particular, has on the big Air Force, 
the Air Force doing all this stuff, what is left over? Not 
enough. And I think that is a big problem.
    I have a couple other question areas, but I will suspend 
those until later and yield back the balance of my time and 
call on Mr. Shuster.
    Mr. Shuster. Thank you. You are starting to sound like an 
appropriator: ``Just one more thing, one more thing.''
    My question is concerning the personnel. I think a lot of 
people on the committee have expressed concern that, as we 
start to increase the force number, that we don't degrade the 
quality. I spent time at Coronado last year, and General Kernan 
was getting, he told us, a lot of pressure from his bosses in 
the Navy to make sure the washout rate was reduced. And he was 
very concerned about that, as well as folks in the Army I have 
talked to. They are concerned about decreasing their criteria 
and letting people through that aren't combat-ready. I have 
read some information that schools seem to be turning out 
people on shorter timelines.
    And I just wondered what your thoughts were on that picture 
of more people and making sure the quality is there.
    Mr. Martinage. Certainly, that is a clear priority. That is 
what makes SOF special, is the training of the personnel.
    As you know, the goal right now is to send up five new 
Special Forces (SF) battalions by the 2013. Two have been 
created, leaving three to go. And the big challenges right now, 
as you suggested, were the limited size of the recruiting pool; 
the high proportion of washouts, as you mentioned; and, sort 
of, retention, competition from the private sector, as well as 
family pressures.
    I think SOCOM has taken pretty good steps to try to address 
the challenge of increasing capacity without reducing quality 
through the 18X, or 18 X-Ray Program. That has worked out 
pretty well. We can argue about the training pipeline and 
whether the expansion of that from, like, 400 to 700 has 
actually had an effect on quality. People have vastly varying 
views on that. And retention bonuses for senior operators have 
also been important.
    I think, going ahead, the question is, if this is really 
important--and I think it is--to achieve the SF battalion 
growth that has been directed, what else might be done? And I 
think one thing is retention incentives for mid-career 
personnel, extending some operator benefits like education 
reimbursement to their families.
    For you, this is kind of getting in the weeds, but section 
517 of the U.S. Code Title 10 restricts the number of E-8s and 
E-9s in each service. That has already been waived for JSOC. 
That same thing could be waived for SOF across the board, which 
would prevent some very seasoned operators from being pushed 
out the door because of that.
    And then lastly, if possible, to open up the Qualification 
Course (Q-Course) to other folks by making it easier for 
Marines, Navy, or Air Force guys to transfer into the Army to 
go into the Q-Course.
    But it is a challenge. I think it is important to get the 
growth, but, as you suggest, it is important to keep the 
quality up. I think those types of steps would be helpful.
    Mr. Shuster. Colonel.
    Mr. Carstens. Sir, what is painful is you all are searching 
for the same guy. You all want that intelligent athlete that is 
comfortable in the chaotic and ambiguous environment. So 
whether it is Marine Special Operations Command (MARSOC) or the 
SEALs or Green Berets, you are all looking for that same guy.
    Right now, they are too experienced. The Army Special 
Forces School is actually doing quite well. I talked to a 
pretty mean, grizzled SF battalion commander, and I said, 
``Tell me about the 18 X-Ray Program.'' I used to run the Q-
Course. I expected him to tell me it was an abysmal failure. 
Instead, he looked me right in the eye and said, ``They are the 
best soldiers I have ever had. They are 10 times better than 
you and I were in our youth.'' And he gave me a few vignettes 
to show me how good these young kids are. So I think the SF 
course is doing quite well.
    The SEAL course is a little more challenging. No matter 
what they do, it seems they still get the same failure rate. It 
is a very tough course, very demanding. Even if they get more 
people going into the course, they are still getting the same 
numbers coming out. The Navy is working hard. I had a chance to 
visit Coronado. They are trying to get more guys through the 
pipeline.
    Mr. Smith. I think it is the whole water thing. That adds a 
layer to it. It just isn't there. I talk to people about it and 
they say that is what makes it very difficult, because all 
these skills are hard to find, and you throw into it, ``Oh, by 
the way, you have to hang out in freezing cold water for a few 
hours several times a day.'' How you get around that, I don't 
know. But you are right--go ahead.
    Mr. Carstens. That had an effect on me. I thought it would 
be much easier to be a Green Beret than a SEAL.
    I am sure Dave Silverman is around. He is a tough little 
guy.
    There are a few things that we need to take a look at, and 
one is recruiting from different backgrounds. I know SOCOM 
right now is trying to look at perhaps recruiting from legal 
aliens. And that has a benefit for a few different reasons. It 
increases our pool. And wouldn't you want to have a guy who is 
a legal alien in the United States who came from the Sudan, who 
speaks local dialects, who can get through our program, 
culturally aware, and can go and do the missions and become a 
full-fledged member of the Special Operations community? There 
is a thought.
    Another thought is making sure we target the right high 
school and collegiate areas. For some reason, some of our 
recruiting programs are not quite hitting that college athlete 
who is bored of going to college or that high school wrestler 
who wants another challenge and doesn't necessarily want to go 
on to higher education. We have to do a little better job of 
targeted recruiting and maybe open up the aperture of who we 
are recruiting from.
    Lastly, you get the pipeline problems of just increasing 
the capacity of the schools. I know with the Q-Course, we 
didn't want to have non-Green Berets in the course because you 
want to have Uniform Code of Military Justice (UCMJ) authority 
over your students. Maybe it is time to go into the contracting 
world and give up that UCMJ authority just to make sure we have 
the right number of instructors to keep the pipeline 
functioning properly.
    Mr. Shuster. Thank you.
    Are we going to have another round?
    Mr. Smith. Yes, certainly.
    Mr. McIntyre.
    Mr. McIntyre. Thank you very much.
    Thank you, gentlemen, for joining us.
    Thank you, Mr. Chairman, for conducting this today.
    Two quick questions, Lieutenant Colonel Carstens: With Fort 
Bragg and Lejeune being on either end of my district, I read 
with great admiration for the work you have done and wanted to 
ask you, you mentioned on page three of your testimony that DOD 
must ensure enabler and logistic support for SOF remaining in 
Iraq as well as conventional forces withdrawal, yet you did not 
list it as one of your top two priorities.
    I am concerned, since we know the President was at Camp 
Lejeune when we were there with him just this past Friday, that 
day is coming now. We do have a certain date after all the 
debate and discussions. And so, how critical is it for us to 
get them logistic support? Because this is on the horizon now.
    I want to know if you think, well, they can make it a 
couple of years; or they can only make it six months; or they 
can make it four or five years. How urgent do you think this 
is, on the logistics support question?
    Mr. Carstens. Sir, I think it is incredibly important. I 
don't think they can make it a few days. When the conventional 
military leaves, when the unit takes off, it is going to take 
with it a lot of the enablers and a lot of the support that 
would have afforded Special Forces an operating base.
    So if you go to either Iraq or Afghanistan, Djibouti, 
Bagram, if there are Green Berets and SEALs sitting in the 
Combined Joint Special Operations Task Forces (CJSOTFs), if the 
conventional force leaves, they suddenly take with them their 
aviation support, their basing support, the people who run the 
dining facility, the contractors. And it is going to be much 
harder. Something as simple as putting fuel in vehicles, be 
they rotary-wing or be they Humvees and Ground Mobility 
Vehicles (GMVs), they are going to have a critical problem.
    The one thing I can say is, no matter where I went, if I 
went anywhere in the United States, or if I went to Coronado to 
talk to the SEALs, or Lejeune to talk to the Marines, I would 
ask that question that we all love to ask: What keeps you awake 
at night? And every single officer and Non-Commissioned Officer 
(NCO) I talked to said, ``We are stressed out that, if we fold 
up in Iraq, we are not going to have logistics support to keep 
operations up and going.'' So while it did not make my list of 
the top two, I know that it would probably make the top one of 
everyone in the Special Operations community right now.
    Mr. McIntyre. That is the urgency that I wanted to hear in 
terms of what we need to focus on.
    Mr. Smith. I wanted to follow up on that. Is the 30,000 to 
50,000 that the President talked about, is that the right 
number? Does that calm some of those concerns? Or is there 
still a concern that there is going to be too much pulled out?
    Mr. Carstens. Sir, that is a great question. Some of the 
guys I talked to in the Fort Bragg area--and I didn't pulse the 
Navy SEAL community on this, sadly--but they feel the number 
seems a little more right. And yet the question is, again, what 
is left behind?
    Bob and I had a chance to go to SOCOM just this past week, 
and what they are worried about, even with big numbers being 
thrown about, with troops staying in Iraq, are you going to be 
able to break down the conventional military unit to leave 
behind what SOF needs?
    A good example, rotary-wing aviation assets. When an 
infantry BCT rotates back to the United States, it pretty much 
has to take everything with it, because if it doesn't, it 
becomes combat-ineffective. And on the report manning 
requirements that filter up through the highest levels of the 
Pentagon, that is not a good thing. So, trying to convince a 
BCT to leave behind an enabler is going to be hard to do.
    What SOCOM would like to do, in working with the GPF, it 
gets into the regular warfare directive. What can you do to 
help us? Can you disaggregate the BCT and just leave us 
something? Can you disaggregate a corps and leave the aviation 
to the mess hall facilities?
    If the GPF can work with SOCOM under the rubric of 
irregular warfare and break down the BCT to extend and 
disaggregate its capabilities, we will have a fighting chance 
to answer that question in the affirmative, that it be done.
    Mr. McIntyre. That is a perfect follow-up, my point 
exactly. Is there a particular ratio generally where you can 
say, like, for every special operator is it 1:1 or 1:1.5, 1:2, 
in terms of logistic support, typically?
    Mr. Carstens. My answer would be that I am not sure. I wish 
I could say I was a little smarter on that. I am probably not 
the brightest lightbulb in this room, sadly.
    I think it comes down to more like packages. Whether the 
ratio might not be right, but SOFs want to make sure, when 
someone leaves, they have X number of intel analysts, X number 
of Signals Intelligence (SIGINT) people to make radio 
communication right, and X number of dedicated rotary-wing air, 
and probably another list. So it might not be the ratio; it 
might be whatever package they show up with.
    Mr. McIntyre. Right. That is logical.
    And one last quick question in the few seconds I have left. 
Where do you see the strongest resistance to elevating SOF to a 
Joint Chiefs of Staff level? Is it certain personalities, or is 
it a certain branch of the services, or is it just the 
tradition that that has not occurred? Can you identify where 
you think the resistance to that idea would come from?
    Mr. Carstens. Sir, it hasn't been floated around much, and 
I believe the actual chairman of the Joints Chiefs of Staff and 
the service representatives would probably have some heartburn 
with that. But I guess my thought is, why shouldn't United 
States Transportation Command (TRANSCOM) be there, why 
shouldn't U.S. Strategic Command (STRATCOM) be there, why 
shouldn't SOCOM?
    Right now, the chairman of the Joint Chiefs of Staff has 
service representatives that basically argue for what they 
want. As the Army four-star, I am really not worried about the 
joint force, I am worried about the U.S. Army. We need to break 
that down and take these cross-pollenating entities like SOCOM, 
STRATCOM, and TRANSCOM and give them a voice on the Joint 
Chiefs of Staff, because right now they have none.
    Mr. McIntyre. Thank you.
    Thank you, Mr. Chairman.
    Mr. Smith. That is an excellent idea.
    Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    I have kind of a comment first, and then a question, just 
because I missed part of the presentation I am interested in 
hearing. You talk about the UCMJ, and you talked about Special 
Operation Forces sort of having their own flag as part of the 
Joint Chiefs possibly someday.
    One of the concerns that sort of just popped in my head 
when you said that--and then you brought up the idea of 
independent contractors, like Blackwater or whatever, over 
there. And I don't know what the logistics of this--but it is 
just something that concerns me, as a former judge advocate in 
the Army, is that the line between an independent Special 
Operations Forces with its own member of the Joint Chiefs, not 
subject to the Army or Navy or whatever, and how they are sort 
of perceived by this sort of changing international community 
with regard to--bottom line, if one of our guys gets in 
trouble, we have to make sure that they are subject to UCMJ and 
not some other jurisdiction that we can't control because they 
are sort of out there on their own. As of now, you know, if the 
guy is a Green Beret, he's part of the Army, obviously.
    So there is not a question there, but that is just 
something that popped into my head when you were discussing 
that. I just want to make sure that we are very careful, if 
that actually comes to fruition, that there is a clear 
distinction between those guys and guys that are independent 
contractors.
    But my question is with regard to something that I didn't 
get to hear you talk about, and that was the resurrection 
potentially of the Office of Strategic Services (OSS) and how 
that could actually play out in this day and age.
    Mr. Martinage. You know, the OSS had a lot composed within 
it: research and analysis, which now has really been the 
Intelligence Community writ large, of which there is a number 
of different entities; secret intelligence and activities, 
which is now absorbed mostly by SOF and JSOC in particular, and 
divided with the CIA and their special activities division; and 
the counterespionage role that OSS had is now sort of the 
Federal Bureau of Investigation (FBI).
    So what does that mean? I think what that means is to 
create a new OSS would really require essentially blowing up 
the entire national security bureaucracy and starting over, to 
some degree.
    Mr. Smith. So you are thinking that might be a little 
difficult.
    Mr. Martinage. I am thinking that it might be a little 
difficult, and I am not sure if the disruption would really be 
worth it, especially because individual elements like CIA's 
Special Activities Division and Special Operations Group and 
Black SOF are very effective. Now, that is not to say that 
there isn't room for improvement. And that is why I would 
stress, I think, three things, but sort of a middle course 
between keeping everything the same and blowing everything up:
    One, I would say increased institutionalized cooperation 
between the CIA and SOCOM, including hybrid career paths so 
people can go back and forth between the two.
    Two, regional interagency task forces that bring together 
the CIA, SOCOM, DOD, and other relevant agencies to solve a 
common problem. We have done that already in some areas of the 
world, and they have been terrifically effective.
    Third, expanded SOCOM authorities, perhaps closer to Title 
50. That gets into very contentious ground, but if we can't 
make some of those other things work, that might be the 
direction where things need to go.
    That would be my response to that.
    Mr. Carstens. Sir, quickly, that would be a dream of mine. 
I would love to serve in that unit. And if I could go back in a 
time machine and be in the OSS and do feats of daring and--
well, you know what I am saying. But I don't think, in this era 
of constrained resources, that that may be possible. I think 
that will be just a bridge too far. So I would recommend a few 
things.
    Number one, JSOC has actually done a pretty good job of 
taking the interagency and bringing it into the military realm. 
We need to take that capability that we have learned from in 
the last seven years and migrate that down to the CJSOTFs level 
for white-side Special Forces and SEALs. There is no reason it 
shouldn't have people from the State Department, Department of 
the Treasury, and the Central Intelligence Agency all working 
together in, say, Bagram or Balad.
    Secondly, migrate Special Forces over to the CIA. And I am 
not just talking about onesies and twosies. Why not take a 
Special Forces company, just plop them down in Virginia and 
say, when you go to that company you are spending a three-year-
long tour working for the Agency? And what that would do is 
give ground branch a resident capability in foreign internal 
defense, which is not a bad thing.
    Thirdly, joint interagency Operational Detachment Alphas 
(ODAs). Let's have it go the other direction. Let's take people 
from the Central Intelligence Agency, the Department of 
Treasury, Department of State and, if they meet the right 
criteria, let them serve on a 12-man ODA. Maybe it becomes a 
14-man ODA. But how wonderful would that be to be in a foreign 
country and have all the authorities right there. You want 
Title 50? Well, you have John right over there. You want Title 
22? You have Al right over here. But bring the interagency down 
to the 12-man ODA, bring it to the Central Intelligence Agency 
and, by all means, put it in the CJSOTFs.
    Lastly, if we can't win by creating an OSS, that also 
argues for taking that four-star officer and putting him on the 
chairman of the Joint Chiefs of Staff and making ASD SO/LIC a 
direct report to the Secretary of Defense (SECDEF). Because, 
really, the overarching issue is making sure that SOF has a 
bigger voice and making sure that the interagency is brought 
into the fold.
    So we can do it all sorts of levels, from the 12-man ODA 
and a line of continuity that goes right up to the chairman of 
the Joint Chiefs of Staff and the Office of the Secretary of 
Defense.
    Mr. Smith. Thank you very much.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony today.
    Mr. Carstens, in your testimony today, you mentioned that--
and this may be have been covered, I came in late, so if it was 
covered, you can let me know. But, for my own edification, I 
would like to know. In your testimony you said, ``It is likely 
that, with the withdrawal of conventional forces in Iraq, the 
Special Operations Forces will see even greater demand.'' And 
what do you believe their primary mission should be, training 
and support or combat operations?
    The second part of it is you noted that, in the early days 
in Afghanistan, they were a model for interagency cooperation 
among the SOF community and the Intelligence Community. And I 
was wondering if you could expand on this and offer your 
assessment as to what other interagency missions Special 
Operations Forces could be involved with, especially your 
comments you just made to the prior question.
    But are there any lessons to be learned from this success 
that could be applied to other interagency missions? It is kind 
of a follow-on to the previous discussion.
    Mr. Carstens. Yes, sir.
    Sir, to answer your first question, do they train or do 
they go on combat? And the great answer is: Both. The thing 
that people do right now is called combat FID, and that is 
foreign internal defense. But you work with your host nation 
element, you train them, you take them through tactics, 
techniques, and procedures, and then you actually get on the 
helicopter and go out and fight with them.
    Now, we don't do that everywhere. We don't do that in the 
Philippines, and we don't do that in Colombia. That is more 
like direct FID. You train the members of the Filipino army or 
the special ops, and then you stay in the base camp and they 
actually leave to conduct the combat operation.
    But in Iraq I think it would be appropriate to keep 
conducting combat-level FID. Right there you get into the great 
question of, what does the GPF do and what does SOF do? It 
would probably be preferable than, when it comes to basic rifle 
marksmanship and basic soldiering, that maybe general purpose 
forces conduct that level of training for Iraqi forces, be they 
police, military or such. But when it gets into the creation of 
high-end finishing forces, I think SOF has a role in conducting 
that.
    By the way, I hope I answered that question, sir?
    Mr. Langevin. That is fine.
    Mr. Carstens. Okay. And they could be very busy doing that, 
by the way. I had a chance to serve with the Iraqi National 
Counter-Terror Force when I was in Iraq, and I think that is a 
model for how you can take a unit and just keep elevating it 
and elevating it to make it a high-end finishing force.
    Secondly, on the interagency side, if Special Forces were 
to work with the Central Intelligence Agency, I think that 
would give them a better training capability in conducting 
foreign internal defense and unconventional warfare at either 
the classified level, to where, if the CIA has a mission in 
country X, if it brings along an ODA, a resident capability in 
foreign internal defense, they might actually have a more 
powerful entity downrange trying to complete that mission.
    In working with the State Department, there are places in 
Africa where it is hard for a military unit to go to a village 
and build a well, to build positive relationships with a 
village, because we don't have the proper authorities. And you 
have probably been here for all the battles between 1208 
funding, 1207 funding, and 1206 funding. If you are working 
with the State Department, you suddenly have a positive melding 
of authorities. That well does get dug because you are working 
with people with Title 22 authorities and Title 22 money.
    And I hope I answered that question, too, sir.
    Mr. Langevin. Yes. And can either of you expand on the 
issue of, perhaps do we need clearer ties between Special 
Operations Forces and our intelligence communities? Maybe we 
can look at that. Is there sufficient coordination now? Can 
that be a greater force multiplier?
    Mr. Carstens. I think we have made great strides. In fact, 
there is someone in the audience who actually did that in 
Afghanistan. He was there during the early days. And I will 
have a chance to introduce him to you afterwards.
    But the point being, I think we have made incredible 
strides in taking the Special Operations community and melding 
it together with the intelligence agencies. There is more work 
to be done. And I would say, based on the people I have talked 
to, that people are seeking that closer cooperation. So I think 
we are trending in the right direction. We still have a ways to 
go.
    Mr. Langevin. What about--probably in the not-too-distant 
future, I am hoping even before 2011 when there is more of a 
drawdown of U.S. forces, we are still going to have to have, I 
am sure, a presence in the area to make sure that we don't have 
to go back there in five years. And I expect that Special 
Operations Forces will be playing a very effective role, being 
stationed outside of Iraq and going in and out when necessary 
to back up Iraqi security forces.
    Can you maybe expand on that vision? And how will they be 
limited, and how will they function the same way if they are 
not per se in-country?
    Mr. Carstens. I brought that up when I was in Iraq. And 
every time I brought that up to a Special Forces officer, they 
would kind of push that to the side, because, to them, it just 
didn't make sense. Their argument was, why would I want to be 
outside the country when I can be inside the country, eating 
the same food with my Iraqi counterparts, training with them, 
living with them, spending my time with them, building positive 
relations, training them, and then fighting together in combat 
FID?
    Right now, all Special Forces units that are conducting 
missions in Iraq or Afghanistan are partnered with a like unit, 
an Iraqi or an Afghan unit. And I think that is kind of where 
everyone wants to keep that. When you talk to folks, they don't 
necessarily want to be outside the theater of operations, 
flying in unilaterally to conduct a mission. They would rather 
make sure that they are with their partners and that they are 
fighting that way.
    Mr. Smith. Thank you.
    I have a couple more questions, but I know Mr. Shuster had 
some as well. So I will yield to Mr. Shuster for five minutes.
    Mr. Shuster. Thank you very much.
    Mine are back to the personnel situation. We started 
talking about a little bit on the recruitment piece of it. I 
know that when we were in Coronado, the admiral brought in a 
college coach, I don't remember what college, a football coach. 
He had a whole group of people trying to figure out how to 
better to recruit SEALs.
    How has that worked? Is that something you have looked at? 
And what is going on on the Army side? You mentioned a little 
bit of that recruitment. Are they looking at different ways?
    Mr. Carstens. When I was in Coronado--and it was, gosh, 
probably about eight or nine months ago--they were still 
struggling through that. They had done a few interesting 
things, I thought. They were trying to target these audiences, 
as you just mentioned. And I think they had also hired a 
contracting firm to conduct some pre-Basic Underwater 
Demolition/SEAL (BUD/S) training to make sure that when a 
prospective candidate went into that environment, they had more 
of a fighting chance to succeed. And what was confounding them 
is they still had the same failure rate. They are increasing 
the numbers, they are recruiting, they believe, the right guy, 
they are providing them with some training that would make them 
physically and mentally harder before they go into the training 
environment, and yet the failure rate is the same.
    They may have made some different gains in the last eight 
to nine months, but when I was there, they were still 
struggling through that, and it was frustrating to them. They 
want more numbers, and that gets into a whole other 
conversation. More numbers are going to allow them to fill the 
requirements they have at the higher levels of, say, 2003, 
2004, and 2005. The trick is getting people into the pipeline 
and then out.
    On the Army side, they have had great success with the 18 
X-Ray Program. And the Army is also doing a training 
environment to allow a prospective candidate to show up at the 
start of the Special Forces Qualification Course having already 
received some land navigation, some military physical training 
and such.
    So we are trying to give everyone a chance to just show up 
and be as best as they possibly can. Because, at the end of the 
day, it is not about how physically fit you are. We are working 
on someone's ability to thrive in an ambiguous environment. It 
is more mental than physical. But the physical portion many 
times is what we use to test the mental.
    Mr. Shuster. What about diversity? Are we trying to go into 
different people with different backgrounds? I know they talked 
about that. I don't know what kind of success rate they are 
having with people from culturally different backgrounds.
    And that goes into the next question of talking about 
foreign nationals. What are the thoughts of recruiting foreign 
nationals to come into our Special Forces and being able to 
operate in those parts of the world that we will never be able 
to, as Americans, be able to fully understand and appreciate?
    Mr. Carstens. I appreciate that question. I can tell you 
from the Q-Course side and the BUD/S side, I don't know the 
answer to that.
    I can tell you that SOCOM writ large and SOCOM in Tampa has 
put a major effort into trying to work through that with the 
Pentagon. They have been talking to OSD Personnel and 
Readiness, they have been talking to the Department of the Navy 
and the Army and the Air Force and such. They have kind of 
spread out a broad attack to find out what they need to do that 
would legally allow them to recruit legal aliens. They have 
even wrestled with the idea of perhaps coming to you at one 
point and asking for another Lodge Act.
    Mr. Smith. The regular forces--there are legal aliens in 
the regular forces, are there not? Or am I wrong about that?
    Mr. Carstens. Sir, you can join the Army. But what SOCOM 
wants to do is fast-track people. You know, if they want to 
recruit into that population, as opposed to having someone just 
join the Army, they want to focus that spotlight on them.
    Mr. Smith. I see. Focus on their recruitment, not just take 
them if they come.
    Mr. Carstens. I can tell you they are pushing the edges. 
Right now, they are talking about legal aliens. They have 
considered maybe, as I said, another Lodge Act.
    SOCOM is actively trying to seek to really answer your 
question, how do we get into a diversified recruitment? How do 
we find that guy from Botswana? How do we find that guy who 
just left Syria? How do we bring them into our culture and 
train them and have them become full-fledged SEALs and Green 
Berets and MARSOC employees?
    Mr. Martinage. One of the constraints has been the ability 
or inability of those people to get a security clearance; and 
the Secretary of Defense, I think, recently made some changes 
to make it possible for some of those naturalized citizens to 
get the expedited security clearance for this exact reason.
    The only thing I throw into the mix on this topic is that, 
well, increasing recruitment and expanding the training 
pipeline are essential. If that just continues without any 
improvement on the back end, the maturity of your force is 
going to go down. It is going to be diluted over time as more 
and more of these young folks come into the teams. So that is 
why retention is really, really important. Because you need to 
keep the retention to balance the overall experience level and 
maturity of these units. So you can't focus just on the 
recruitment end.
    Mr. Shuster. I know that we have talked to some SEALs and 
E-8s and E-9s, and there aren't enough spots. And it comes down 
to, I think, the question we asked after we talked to the folks 
who wanted to stay in, who wanted to serve longer? Is it is a 
matter of money? We only funded so many slots, but it seems to 
me that it is not wise from our side to not keep these guys in 
that want to continue to be active and serve.
    Mr. Martinage. I agree, sir.
    Mr. Smith. And we continue to work on that issue with the 
Personnel Committee. That is something we should definitely, 
definitely take a look at.
    Just a couple more questions. One quick follow-up on that 
in terms of whether the SEALs are out with their numbers. How 
big is the problem in terms of them meeting whatever the 
expanded requirements are for them in the next five, six years? 
I am trying to get an idea of how short the current process is 
going to leave them in terms of being able to meet the numbers 
they want.
    Mr. Carstens. Sir, I wish I could give you a good 
percentage. I can't.
    I can say that I think they are going to have to--they are 
challenged. They are challenged in trying to get, again, people 
to graduate in the right amount. They are getting about 130 to 
150 graduates every year. They would love to elevate that, but 
they just can't seem to break into the 200, 250 realm no matter 
what they are doing.
    I know they are working on it. They are smart guys. I am 
sure they will figure it out here any day now.
    But another problem I will just throw out there, though, is 
even if they increased the capacity of the school, and let us 
say that they suddenly started generating 200 to 250 people, 
where they are currently, they are going to have problems 
putting people in slots. There are only so many SEAL platoons. 
And if you suddenly push 250 through, you are going to be 
almost double-slotting people in basic SEAL platoons; and yet 
you have to do your time in a SEAL platoon before you can rise. 
So it is almost--you want them to create more SEALs, and it is 
almost like you have to create more force structure to create 
more SEAL platoons to get to the right force structure you want 
as you progress through the rank structure through time.
    Mr. Smith. I wanted to follow up on the irregular warfare 
piece of this. You had suggested setting up an irregular 
warfare command, and I think that speaks to the larger issue of 
how we sort of get the SOF to cooperate and work more closely 
with the broader force on the demands that are so 
disproportionately placed on SOCOM. Because a lot of the type 
of stuff we are talking about, counterinsurgency, certainly the 
indirect action piece but also the direct action piece that 
SOCOM has done so much of, is really sort of the future face of 
the war we are going to be fighting and where we are going to 
be fighting it.
    One of the ways to sort of get past some of our number 
problems would be to leverage the larger military into that. 
And certainly having an irregular warfare command having focus 
on that, having a cooperation--I have heard some other people 
suggest, just as you had suggested on the ODAs, bringing in CIA 
and Treasury to sort of get that cooperation, that you do the 
same thing with the regular military, that you start slotting 
some of those people out into the force with an ODA or with a 
SEAL team or with the CJSOTF in different places. I just wanted 
you to play out for us a little bit how you envision that 
happening.
    And, also, specifically, I know the Office of the Secretary 
of Defense (OSD) has looked at how to expand and place more 
importance on irregular warfare (IW). We put some language in 
our bill last year to try to push them in that direction. How 
is that effort going and where does it need to go to get the 
level of focus on IW force-wide that you think we need?
    Mr. Martinage. Well, when I was talking about the Joint 
Irregular Warfare Commander, that I envisioned would be under 
SOCOM. It was really intended to be sort of the indirect 
approach counterpart to JSOC to direct action; and the reason 
for that, sir, is really a combination of things. One is to 
centralize the--sort of the material development, the 
organization, the training, the caring and feeding career paths 
of folks who are in that sort of career specialty. Because 
there is some concerns certainly within the Special Forces 
community that they--the indirect warfare approach folks don't 
get the same opportunity, the same training opportunities as 
the direct action (DA) folks do.
    The second reason to consider doing it is to create a more 
powerful advocate for the special operations approach to 
irregular warfare within the broader joint force. So, you know, 
you are out there either within SOCOM or within DOD trying to 
push the case for the Special Operations answer to this 
irregular warfare challenge. It would be nice to have some more 
senior folks in that position.
    I am not sure if Roger wants to talk about the idea of 
trying to integrate conventional forces into that. That, to me, 
gets into some really sticky areas between SOCOM and the other 
commands.
    Mr. Smith. Just quickly, how open do you think OSD is to 
the idea you just described?
    Mr. Martinage. I am not sure. OSD I think might be 
reasonably open to the idea. I think the question more is 
SOCOM. I think SOCOM and the Center for Special Operations in 
particular would be very opposed to this idea. So there we are.
    But, as I said earlier, it is not a coincidence that there 
has really never been a Special Forces officer commanding SOCOM 
and that all the SOCOM commanders have come from the direct 
action community. And the question, as you said, if the world 
we are looking at over time is really more of this persistent 
irregular warfare where the indirect and clandestine approach 
is really central, should we do something to build up those 
guys?
    Mr. Smith. I want to drill down this--I am over time, but I 
am in charge, so I am going to cheat. I will get to Mr. 
Langevin in just a second.
    First of all, I don't know that you can draw such a neat 
line and say that there has never been an indirect action 
person in charge of SOCOM. Certainly they have all had that 
experience.
    That aside, a lot of these folks have done a lot of 
different things. So I would be leery of drawing such a bright-
line distinction.
    I doubt outside of certainly the Rangers, you know, most 
people who served, certainly in the last four or five years, in 
SOCOM have had occasion to do both in one place or another. So 
I think it blends over a little bit.
    And, also, in talking with Admiral Olson and in talking 
with General Brown before him and a lot of different folks, I 
mean, there seems to be a lot more emphasis on indirect action 
right now within SOCOM, you know, for the importance of this 
piece. Just in traveling around and talking with people about 
it, that is my perception. My perception could be wrong. Don't 
you see SOCOM sort of moving at least a little bit in that 
direction on their own now?
    Mr. Martinage. Sure. And just going back to your previous 
point, I wouldn't make the distinction between direct and 
indirect so much as between Special Forces and nonspecial 
forces or some other career path to be the direct action 
community. Anyway, that is sort of a minor issue.
    But I think--yes, I think SOCOM recognizes and I think they 
are putting more resources into that area. But I still think 
you have this perennial institutional tension between sort of 
the two sides. And, as mentioned earlier, you know, okay, what 
explains, for instance, the fact that White SOF in Afghanistan 
don't get the lift they require 50 percent of the time and the 
special mission units get whatever they want? That to me 
suggests that there is----
    Mr. Smith. I don't question the validity of your overall 
point.
    Mr. Martinage. I think they are moving in the direction. I 
just think there is probably more that could be done to balance 
it.
    Mr. Smith. Certainly.
    Jim, do you have any more?
    Bill, this is unfair at the moment, but do you have 
anything else.
    Mr. Shuster. No.
    Mr. Smith. One other issue area. As far as the theater 
Special Operations commanders are concerned, how do you see 
their role in all of these issues we have raised in terms of 
interagency, in terms of working with the intelligence side, in 
terms of working with the broader military? Do you think that 
that is effective right now? And how would you--what makes 
sense in terms of enhancing it and making those things work 
better, focusing on the Theater Special Operations Commands 
(TSOCs)?
    Mr. Martinage. That is a great question. I have a couple of 
quick comments.
    One is, I think there is a question about what is the 
TSOCs' role. Is it really supporting the global combatant 
commander or is it being the instrument through which SOCOM 
coordinates and synchronizes global operations?
    Mr. Smith. It is kind of both.
    Mr. Martinage. In theory. I think right now it is more 
about supporting the global combatant commander. And the sense 
I certainly got when we were at SOCOM is SOCOM is much more 
interested in how can we help you Geographic Combatant Commands 
(GCCs), and the TSOCs are a part of that. And someone suggested 
that, you know, SOCOM should use the TSOCs as a more powerful 
instrument for coordinating and synchronizing global activities 
and for getting the Special Operations approach attention 
within the regional combatant commands. And as part of that, 
you know, certainly the TSOCs could serve in an interagency 
task force at the regional level within each of the global 
combatant commands.
    But I think the question is again coming back to would it 
be appropriate to give the TSOCs a louder voice in the global 
combatant commands. Because, you know, we face this irregular 
warfare dominant world where Special Operations are really 
central and they are intensive. So in making the points with 
the very much GPF-dominated staffs, would it be helpful to, 
say, to increase the rank structure or the staffs of the TSOCs?
    So, for instance, in a place like U.S. Central Command 
(CENTCOM), which is clearly a major area for this irregular 
warfare indirect and clandestine fight against terrorist 
groups, should that TSOC commander be a three-star, just to 
give again a stronger voice to the Special Operations 
community?
    Mr. Carstens. My sense is that the TSOC has a lot of unused 
potential. If you were to go down to Djibouti and ask the 
CJSOTF there or SOC, however you want to refer to it, it is a 
rather small element, if you were to ask them about the role 
that TSOC right there, Special Operations Command-Forward (SOC-
F), they would say they would like them to step up a little 
more. Right now, they feel like that are part of CJTF, the 
conventional military's special staff with regards to Special 
Operations. They don't feel that TSOC is taking an 
appropriately aggressive role in providing them support and 
giving them a voice.
    So in Djibouti they would say, we would like the TSOC to 
step up to the plate a little more. I think in Afghanistan they 
felt the same way. They felt that there is such a convoluted 
approval process for fires and for increasing troops--and I 
will especially go to fires. They would like the TSOC to have a 
stronger, more aggressive role in providing them top cover and 
for giving them a voice.
    Iraq, I really didn't probably delve into that as much as I 
needed to. I will at least say from two of the three places I 
visited overseas, they would like the TSOC to step up to the 
plate and give them more of a voice.
    Mr. Smith. Well, thank you.
    That is all the questions I have. I really--I think the 
issues you have raised here have been very important, and one 
of our main focuses on this committee is to try to expand the 
number of people who are paying attention to this and to try to 
get certainly Congress but also OSD to really focus on this. 
There are a lot of issues clearly surrounding our military 
right now. But as you go forward, as you look at the most 
important battles that we are going to fight, they are against 
insurgencies, insurgencies attached primarily to the violent 
extremist ideology that al Qaeda and others are promulgating. 
And it is Africa, it is Southeast Asia, it is Iraq, 
Afghanistan, and a bunch of other places.
    The lead on this, in my view, in the decades ahead is going 
to be much more an irregular warfare piece, which is what SOCOM 
is uniquely qualified to do and has been doing an outstanding 
job. But how is not just the military but how is our entire 
government apparatus, including the intelligence pieces and the 
State Department piece, how is it structured to fight that 
counterinsurgency fight?
    Right now, I think too much is focused on more Cold-War-era 
issues. And I understand if that is sort of where you came of 
age and where the skill sets are or where the weapon systems 
are that there is this natural tendency to try to say, no, but 
this is perfect for the new fight, too. Just flop it around 
here and make it fit.
    But really, if we are going to effectively fight this, we 
need to make some shifts. I think you guys have some great 
suggestions here; and it is the intention of this committee to 
push the envelope on that in our authorizing bill, to push for 
some of these changes that you have talked about, which ones we 
think we are most likely to be successful on with the full 
committee and the full House. But we definitely want to see 
some of these changes.
    I just think you have given us some outstanding ideas, and 
we want to keep up the dialogue and continue to work with you 
as we go about trying to push and implement some of these ideas 
into the administration and into OSD. So thank you for your 
excellent work, and we look forward to working with you.
    We will also probably submit some questions for the record 
that we will then get written responses from you as more ideas 
occur to us after this.
    So thank you very much for your work and your testimony, 
and we are adjourned.
    [Whereupon, at 5:14 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             March 3, 2009

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 3, 2009

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  <all>

</pre></body></html>
